App. 1
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 20-11389
Non-Argument Calendar
-----------------------------------------------------------------------

D.C. Docket No. 1:18-cv-01394-SDG
KENNETH R. KNOWLES,
Plaintiff-Appellant,
versus
OFFICER JASON MICHAEL HART,
Defendant-Appellee.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Georgia,
-----------------------------------------------------------------------

(August 28, 2020)
Before NEWSOM, LAGOA, and BRASHER, Circuit
Judges.
PER CURIAM:
Kenneth R. Knowles, individually and as administrator of the estate of his late wife, Lori Renee Knowles
(“Decedent”), appeals the district court’s order granting summary judgment in favor of Ofﬁcer Jason Michael Hart based on qualiﬁed and ofﬁcial immunity.

App. 2
Knowles argues that the district court did not properly
apply the summary judgment standard in granting Ofﬁcer Hart qualiﬁed and ofﬁcial immunity and abused
its discretion in retaining and ruling on state law
claims rather than dismissing them to be ﬁled in state
court. Upon consideration, the district court’s order is
AFFIRMED.
BACKGROUND
We presume familiarity with the factual and procedural history and describe it below only to the extent
necessary to address the issues raised in this appeal.
Decedent called 911 multiple times—yelling,
screaming, and somewhat incoherent—and indicated
she had taken too much medicine. Dispatch informed
Ofﬁcers Hart and Goetz of the call and sent them to
Decedent’s house. The ofﬁcers knocked on the front and
back doors with no answer, but they could hear a female inside yelling and screaming “f*** you,” among
other things, in an incoherent manner. After waiting
for paramedics to arrive, the ofﬁcers forced their way
into the house and followed the voice down a hallway
with Ofﬁcer Hart in the lead. Ofﬁcer Hart stopped
when he saw Decedent lying on a bed in a room to his
right. Ofﬁcer Goetz remained behind Ofﬁcer Hart but
could see Decedent in a mirror hanging on the bedroom
wall.
When Ofﬁcer Hart saw a handgun in a holster on
Decedent’s hip, he drew his gun, pointing it at the ﬂoor,
and yelled at her to show her hands. Decedent arose

App. 3
from the bed with blood on her face, yelling and
screaming, with what the ofﬁcers later described as an
“evil” look on her face. Decedent reached for her gun at
least once before Ofﬁcer Hart ﬁred at her. Immediately
after ﬁring his gun, Ofﬁcer Hart, joined now by Ofﬁcer
Goetz, tackled Decedent and secured her weapon. Decedent kicked, fought, and screamed until the ofﬁcers
handcuffed her. Decedent indicated she had been shot
in the chest, and the paramedics strapped her to a
stretcher to take her to a hospital. On the way, the paramedics administered anti-psychotic medication and
Decedent began having seizures. Tragically, she died of
a cardiac dysrhythmia before reaching the hospital.
The autopsy report indicated that the bullet entered Decedent’s right breast and exited her armpit,
traveling along the ribs without entering the chest cavity. Although the wound was not an independently lethal injury, it may have contributed in some degree to
the stress causing Decedent’s fatal cardiac dysrhythmia. The autopsy indicated the main stress was a combination of mixed drug intoxication, physical restraint
from the handcuffs and stretcher, and a history of bipolar and panic disorders.
Decedent’s husband, Knowles, sued on behalf of
Decedent’s estate, alleging six counts: battery, negligence, wrongful death, pain and suffering, bad faith,
and a federal excessive force claim in violation of the
Fourth Amendment under § 1983. The district court
granted Ofﬁcer Hart’s motion for summary judgment,
and Knowles timely appealed.

App. 4
DISCUSSION
Knowles argues that (1) the district court did not
properly construe the evidence in his favor; (2) Ofﬁcer
Hart was not entitled to qualiﬁed immunity because
he used excessive force against Decedent; (3) Ofﬁcer
Hart was not entitled to ofﬁcial immunity because he
acted with actual malice in shooting Decedent; and (4)
the district court should have dismissed the state law
claims rather than retain them under 28 U.S.C.
§ 1367(a) supplemental jurisdiction.
We review a district court’s order granting summary judgment de novo. Haves v. City of Miami, 52 F.3d
918, 921 (11th Cir. 1995). And we review a district
court’s decision to retain supplemental jurisdiction
over state law claims for abuse of discretion. Parker v.
Scrap Metal Processors, Inc., 468 F.3d 733, 738 (11th
Cir. 2006). In conducting our review, we hold that none
of Knowles’s arguments have merit. We address each
in turn.
First, the district court correctly granted summary
judgment notwithstanding certain alleged inconsistencies in the record. We will reverse a district court’s
grant of summary judgment if it overlooks evidence
contradicting factual points key to the holding. Tolan
v. Cotton, 572 U.S. 650, 659 (2014). Here, Knowles argues that the following should have foreclosed summary judgment: Ofﬁcer Hart could not recall whether
Decedent touched the gun, Ofﬁcer Hart stated once
that he thought Decedent was “going over into the corner, like she was gonna get her gun out and take cover

App. 5
and start shooting,” the Joint Preliminary Report and
Discovery Plan stated that Ofﬁcer Hart “shot and
killed Knowles, without hesitation and without giving
any warning", Ofﬁcer Hart thought his shot missed Decedent but did not shoot at her again, and Ofﬁcer Hart
did not disarm Decedent before resorting to deadly
force. But none of this evidence negates the reasonableness of Ofﬁcer Hart’s use of deadly force. The pertinent facts, which Ofﬁcer Hart consistently asserted,
are that Decedent refused to show her hands until she
arose from the bed, yelling and screaming with blood
on her face, before reaching towards the gun she had
holstered on her waist. Under these facts and circumstances, an ofﬁcer is entitled to use deadly force to protect himself, as set out further in the qualiﬁed
immunity analysis.
Second, Ofﬁcer Hart was entitled to qualiﬁed immunity from Knowles’s federal claim because his reasonable use of deadly force did not violate the
Constitution. In a qualiﬁed immunity case, an ofﬁcer
bears the initial burden of showing he was engaged in
a discretionary function; the burden then shifts to the
plaintiff to show the ofﬁcer is not entitled to qualiﬁed
immunity. Holloman ex rel. Holloman v. Harland, 370
F.3d 1252, 1267 (11th Cir. 2004). Neither party disputes that Ofﬁcer Hart was acting in a discretionary
function, so the burden is on Knowles to show that Ofﬁcer Hart is not entitled to qualiﬁed immunity.
To overcome qualiﬁed immunity, Knowles must
show that (1) Ofﬁcer Hart violated a constitutional
right, and (2) that right was clearly established at the

App. 6
time of the alleged violation. Cozzi v. City of Birmingham, 892 F.3d 1288, 1293 (11th Cir. 2018). A court need
not proceed to the second factor if it ﬁnds that a constitutional right was not violated. Saucier v. Katz, 533
U.S. 194, 201 (2001); see also Pearson v. Callahan, 555
U.S. 223, 236 (2009) (recognizing that proceeding in
this order is “often appropriate,” but is not mandatory).
Knowles argues that Ofﬁcer Hart violated Decedent’s
constitutional right to be free from unreasonable seizure because mere possession of a lethal weapon in a
non-threatening manner is no justiﬁcation for use of
deadly force. But Decedent did not merely possess a
weapon. The only evidence on point establishes that
she acted in a threatening manner by refusing to show
her hands, climbing off the bed, yelling and screaming,
and reaching for her weapon at least once.
The right to be free from unreasonable search and
seizure is secured by the Fourth Amendment. Under
the Fourth Amendment, an ofﬁcer’s use of deadly force
must be reasonable. Graham v. Connor, 490 U.S. 386,
395 (1989). The reasonableness determination is based
on the facts and circumstances as the ofﬁcer reasonably believed them to be, even if the ofﬁcer’s judgment
was mistaken. Garczynski v. Bradshaw, 573 F.3d 1158,
1167 (11th Cir. 2009); Wood v. Kesler, 323 F.3d 872, 878
(11th Cir. 2003).
To assess “reasonableness,” a court holds up an ofﬁcer’s decision to use deadly force against the case’s
particular facts to determine whether the ofﬁcer was
justiﬁed under the totality of the circumstances. Garczynski, 573 F.3d at 1166. No set list of essential factors

App. 7
bearing on reasonableness exists, but some examples
of relevant factors might include: “the seriousness of
the crime, whether the suspect poses an immediate
danger to the ofﬁcer or others, whether the suspect resisted or attempted to evade arrest, and the feasibility
of providing a warning before employing deadly force.”
Jean-Baptiste v. Gutierrez, 627 F.3d 816, 822 (11th Cir.
2010). The mere possession of a gun in and of itself is
not sufﬁcient to justify using deadly force: “Where the
weapon was . . . and what was happening with the
weapon are all inquiries crucial to the reasonableness
determination. . . . [T]he ultimate determination depends on the risk presented, evaluating the totality of
the circumstances surrounding the weapon.” Perez v.
Suszczynski, 809 F.3d 1213, 1220 (11th Cir. 2016); see
also Mercado v. City of Orlando, 407 F.3d 1152, 1154,
1158 (11th Cir. 2005) (Fourth Amendment violation for
shooting person armed with knife but making no
threatening moves); Turk v. Bergman, 685 F. App’x 785,
788–89 (11th Cir. 2017) (Fourth Amendment violation
for shooting person holding gun in lap when ofﬁcers
found him but not making any threatening moves).
Here, the facts and circumstances as Ofﬁcer Hart
reasonably believed them to be were that he was responding to a call from an unknown, distressed woman
who had ingested an unknown drug. No one answered
either the front or back door and he could hear a
woman screaming, yelling, and cursing inside. He
turned a corner and found himself in close quarters
with an armed woman who refused to show her hands

App. 8
and jumped up out of the bed, still yelling and screaming. She then reached for her gun at least once.
Under these facts and circumstances, Ofﬁcer Hart
did not violate Decedent’s constitutional rights. He was
not required to wait for Decedent to draw her gun and
point it at him. Ofﬁcer Hart’s decision may not have
been reasonable had Decedent been holding a knife,
had she complied with commands to show her hands,
or had she merely been holding a gun without making
any threatening moves. But Decedent was armed with
a gun, not a knife. She was not showing her hands. And
she was reaching for her weapon, not already holding
it when the ofﬁcers arrived. Ofﬁcer Hart’s use of deadly
force was reasonable under the Fourth Amendment,
and he is entitled to qualiﬁed immunity.
Third, Ofﬁcer Hart was entitled to ofﬁcial immunity from Knowles’s state claims. Under Georgia law, an
ofﬁcer who shoots a person intentionally and without
justiﬁcation can be sued in tort. Kidd v. Coates, 518
S.E.2d 124, 125 (Ga. 1999). But the shooting must
show “actual malice or intent to cause injury,” meaning
the malice must be express and deliberate, not just implied through a reckless disregard for the rights or
safety of others. Murphy v. Bajjani, 647 S.E.2d 54, 60
(Ga. 2007). If the ofﬁcer did not have tortious intent,
the ofﬁcer is entitled to ofﬁcial immunity. Kidd, 518
S.E.2d at 125.
Here, no genuine issue of fact exists that would indicate Ofﬁcer Hart shot the decedent with actual malice. The evidence on summary judgment shows that

App. 9
Ofﬁcer Hart shot Decedent after she refused to show
her hands; jumped out of the bed, yelling and screaming; and reached for her gun at least once. Ofﬁcer Hart
argues that he shot Decedent in self-defense. Even if
we were unpersuaded by Ofﬁcer Hart’s self-defense
claim, mere recklessness is insufﬁcient to overcome ofﬁcial immunity under Georgia law. Instead, Knowles
would have to show that Ofﬁcer Hart acted with actual
malice. No such evidence exists on this record.
Fourth, the district court did not abuse its discretion in retaining supplemental jurisdiction over, and
dismissing, Knowles’s state claims. Under 28 U.S.C.
§ 1367(a), the district courts “shall have” supplemental
jurisdiction over state claims that are so close to claims
subject to a court’s original jurisdiction as to form part
of the same Article III case or controversy. Supplemental jurisdiction is discretionary, and a court may
exercise its discretion to dismiss or retain state claims
after dismissing claims subject to its original jurisdiction under 28 U.S.C. § 1367(c)(3).
Knowles argues that the district court was required to consider the factors of comity, convenience,
fairness, and judicial economy, which were announced
in United Mine Workers v. Gibbs, 383 U.S. 715 (1966).
Knowles’s state claims arise out of the same facts as
the federal excessive force claim, over which the district court had original jurisdiction. The state claims
did not present any novel or complex issues of state
law. The claims did not substantially predominate over
the excessive force claim; in fact, they are inextricably
intertwined. And these state claims were clearly

App. 10
barred by official immunity. Dismissing these claims
so they could be raised again in state court would have
been a waste of judicial resources.
CONCLUSION
The district court did not err in granting summary
judgment or abuse its discretion in retaining supplemental jurisdiction over Knowles’s state claims. Accordingly, we AFFIRM the district court’s grant of
summary judgment.

App. 11
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
KENNETH R. KNOWLES,
Individually and as Administrator of the Estate of Lori Renee
Knowles,
Civil Action No.
1:18-cv-01394-SDG

Plaintiff,
v.
OFFICER JASON MICHAEL
HART,
Defendant.
ORDER

(Filed Apr. 3, 2020)
This matter comes before the Court on Defendant’s Motion for Summary Judgment [ECF 25]. For the
reasons set forth below, the motion is GRANTED.
I.

BACKGROUND
a. Facts

The undisputed material facts, construed in a
light most favorable to the nonmoving party, are as
follows. On July 24, 2014, Lori Knowles1 called Henry

1

For purposes of this Order, “Knowles” will refer to Lori
Knowles. “Plaintiff ” will refer to Kenneth Knowles, individually
and as administrator of Lori Knowles’s estate.

App. 12
County 911 multiple times.2 The 911 operator had difﬁculty understanding Knowles as she was yelling and
screaming and somewhat incoherent.3 Knowles did not
identify herself, but she indicated that she had taken
too much medicine.4 Defendant Ofﬁcer Jason Hart and
Ofﬁcer Goetz were dispatched to Knowles’s address.5
The dispatcher informed the ofﬁcers that the caller
was an unknown female who was incoherently yelling
and screaming and had reportedly taken too much
medication.6
Ofﬁcer Hart and Ofﬁcer Goetz were in uniform
when they arrived.7 The ofﬁcers knocked on the front
door of the house numerous times and loudly announced “police,” but no one answered.8 Ofﬁcer Hart
told Officer Goetz that he heard someone screaming
inside.9 Ofﬁcer Hart believed the female screaming
seemed distraught and in danger.10 Unable to see anything through the windows in the front of the house,
the ofﬁcers went to the back of the house.11 Ofﬁcer Hart
knocked on the back door.12 The ofﬁcers heard a female
2

ECF 25-5, ¶¶ 1, 4.
Id. ¶¶ 2, 4, 7.
4
Id. ¶¶ 2, 4.
5
Id. ¶¶ 6, 8.
6
Id. ¶¶ 7–8.
7
ECF 25–6, at 13; ECF 27 (Goetz Dep. Tr., Ex. 2), at 158.
8
ECF 25–5, ¶ 11.
9
Id. ¶ 12.
10
Id. ¶ 14.
11
Id. ¶ 18.
12
Id. ¶ 19.
3

App. 13
voice from inside, yelling and screaming “f – – you”
among other things, but the ofﬁcers could not comprehend all that was being said or to whom it was directed.13 The ofﬁcers attempted to open the back door
and found it to be locked.14
The ofﬁcers considered the situation to be an
emergency.15 Accordingly, they informed their supervisor, Sergeant Lyle, and he agreed with the ofﬁcers’ assessment that they should make a forced entry.16
Sergeant Lyle advised them to wait until the paramedics arrived on the scene.17 When the paramedics arrived, they gave the ofﬁcers a tool to open the back
door.18 The ofﬁcers and paramedics went to open the
back door, where they could still hear the female yelling and screaming inside.19
Upon entering the house, Ofﬁcer Hart saw a large,
closed gun safe in the living room.20 The ofﬁcers could
hear the woman yelling “f – – you” from down the hallway.21 They proceeded down the hallway, towards the
sound of the woman’s voice.22 As they reached the end
13
14
15
16
17
18
19
20
21
22

Id. ¶ 20.
Id. ¶ 21.
Id. ¶¶ 22–3.
Id. ¶ 24.
Id. ¶ 25.
Id. ¶¶ 26–27.
Id. ¶ 28.
Id. ¶ 30; ECF 26 (Hart Dep. Tr.), at 93:8–19, 96:14.
ECF 25–5, ¶ 31.
Id.

App. 14
of the hallway, Ofﬁcer Hart stepped toward a bedroom
to his right and looked inside.23 At this point, Ofﬁcer
Hart was in the threshold of the bedroom door and
Ofﬁcer Goetz was behind him.24 Ofﬁcer Goetz was able
to see into the bedroom via a mirror hanging on the
wall.25
Inside the bedroom, Ofﬁcer Hart saw a female,
later identiﬁed as Knowles, lying face down on her bed
with a black handgun inside a holster strapped to her
right hip.26 Ofﬁcer Hart advised Ofﬁcer Goetz about
the gun and yelled for Knowles to show her hands.27 As
he did so, Ofﬁcer Hart drew his service weapon and positioned it at a low ready position.28 In this position,
the gun was pointing towards the ﬂoor, not at
Knowles.29 After Ofﬁcer Hart told Knowles to show her
hands, she got up from the bed.30 Knowles had blood on
her face, was yelling and screaming, and, according to
both ofﬁcers, had an “evil” look on her face.31
The parties dispute some of what happened next.
However, the evidence shows that Knowles reached for

23
24
25
26
27
28
29
30
31

Id. ¶ 36.
ECF 25–2, ¶ 10.
Id.
ECF 25–5, ¶¶ 37, 38.
Id. ¶ 39.
Id. ¶ 40.
Id. ¶¶ 40–41.
Id. ¶ 42.
Id. ¶ 43.

App. 15
her gun.32 From there, it is undisputed that Ofﬁcer
Hart ﬁred his service weapon once within approximately 15 seconds after his ﬁrst command for Knowles
to show her hands.33 After Ofﬁcer Hart ﬁred his
weapon, Knowles fell to the ﬂoor and Ofﬁcer Hart
rushed to her in an attempt to secure the handgun.34
Knowles began kicking, ﬁghting, refusing to cooperate,
and screaming.35 Ofﬁcer Goetz came into the room to
help Ofﬁcer Hart get Knowles under control, but she
continued to ﬁght with and scream at the ofﬁcers.36
32

Plaintiff disputes whether and how Knowles reached for or
touched her gun by citing to allegedly contradictory statements
by Ofﬁcer Hart. ECF 32–9, ¶ 44 (citing ECF 32, at 4–11). While
Ofﬁcer Hart’s statements show a conﬂict over whether Knowles
touched her gun, he always reported that she reached for it. In
his incident report, Ofﬁcer Hart stated that he “observed
[Knowles] several times reaching down at her waistband where
the handgun was located.” ECF 32–2, at 2. During the GBI interview the next day, Ofﬁcer Hart stated that he “noticed her right
hand going down towards the gun” and he “noticed her going
down for the weapon several times.” ECF 32–7 (Hart GBI Recorded Statement), at 8:25–8:40. In his deposition, Ofﬁcer Hart
stated that she “kept reaching down for the ﬁrearm.” ECF 26
(Hart Dep. Tr.), at 72:14–15. When asked if he would say Knowles
actually touched the weapon, he replied, “I would say that. Yes,
sir.” Id. at 75:20–21. However, in his declaration, Ofﬁcer Hart
states, “her hand reached toward the handgun located on her side;
from my angle, I could not tell for sure if she was touching it.”
ECF 25–1, ¶ 31. Further, the only eyewitness testimony available
after Knowles got up from the bed is Ofﬁcer Hart because Ofﬁcer
Goetz lost his visual on Knowles through the mirror at that point.
ECF 32–3; ECF 27 (Goetz Dep. Tr.), at 144:21–145:2.
33
ECF 25–5, ¶ 48.
34
Id. ¶ 49.
35
Id. ¶ 50.
36
Id. ¶ 51.

App. 16
Eventually, the ofﬁcers handcuffed Knowles and removed the handgun from the holster on her side.37
Ofﬁcer Hart asked Knowles if she had been hit
and she said yes.38 A paramedic found a gunshot
wound on her right breast.39 Knowles continued to
ﬁght while the paramedics strapped her onto a
stretcher to be transported to a hospital.40 Knowles
was taken by ambulance to a local hospital.41 While en
route, the paramedics gave Knowles anti-psychosis
medication, after which she began having seizure-like
activity and became unresponsive.42 Knowles had no
vital signs by the time she arrived at the hospital and
she was pronounced dead within the hour.43
Knowles’s autopsy revealed that the gunshot entered her right breast near the center of the chest and
exited in the armpit area.44 The bullet did not enter the
chest cavity or travel through the ribs.45 The medical
examiner found that “to a reasonable degree of medical
certainty,” the gunshot wound was not an independently lethal injury.46 Thus, with appropriate care,
37
38
39
40
41
42
43
44
45
46

Id. ¶¶ 52–53.
Id. ¶ 55.
Id. ¶¶ 55, 56.
Id. ¶ 57.
Id. ¶ 58.
Id. ¶ 59.
Id. ¶ 60.
Id. ¶ 65.
Id. ¶¶ 65–66.
Id. ¶ 69; ECF 25-3, ¶ 6.

App. 17
the gunshot wound would not have been life-threatening.47 The medical examiner determined that many
factors contributed to Knowles’s cardiac dysrhythmia
and death, including: mixed drug intoxication, physical
restraint based on her being handcuffed and strapped
to the medical stretcher, and a history of bipolar and
panic disorders.48 The medical examiner concluded
that the gunshot wound was a possible complicating
factor because it would have increased the stress
Knowles was already experiencing as a result of her
drug-induced psychosis or psychotic episode, but, “it is
impossible to determine the degree or level of any increased stress or what effect, if any, it would have had
on [her] physiological condition.”49
b. Procedural History
Plaintiff, Knowles’s surviving husband,50 ﬁled this
action on April 2, 2018.51 The Complaint asserts the following claims under Georgia law: battery (Count I),
negligence (Count II), wrongful death (Count III), pain
and suffering (Count IV), and bad faith (Count V). It
also asserts a federal excessive force claim against Ofﬁcer Hart in his individual capacity, in violation of the
Fourth Amendment under 42 U.S.C. § 1983 (Count VI).
47

ECF 25–5, ¶ 70; ECF 25–3, ¶ 6.
ECF 25–5, ¶ 73; ECF 25–3, ¶ 9.
49
ECF 25-3, ¶ 10.
50
ECF 1, ¶ 2.
51
ECF 1. Plaintiff previously ﬁled this action in the State
Court of Henry County, Georgia on July 22, 2016. Id. ¶ 1. That
action was voluntarily dismissed on October 5, 2017. Id.
48

App. 18
On March 11, 2019, Ofﬁcer Hart moved for summary
judgment on all counts.52 Ofﬁcer Hart’s motion argues
that he is entitled to qualiﬁed immunity from Plaintiff ’s § 1983 claim and ofﬁcial immunity from Plaintiff ’s state law claims.
Plaintiff ’s Complaint failed to assert a basis for
this Court’s jurisdiction. However, since the Complaint
asserts a § 1983 cause of action, this Court has jurisdiction over that claim under 28 U.S.C. § 1331. Since
the state law claims arise from the same case and controversy as the § 1983 claim, the Court has jurisdiction
over those claims under 28 U.S.C. § 1367(a).
II.

LEGAL STANDARD

Summary judgment is appropriate when “there is
no genuine dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R.
Civ. P. 56(a). A fact is “material” only if it can affect the
outcome of the lawsuit under the governing legal principles. Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986). A factual dispute is “genuine . . . if the evidence
is such that a reasonable jury could return a verdict for
the nonmoving party.” Id.
A party seeking summary judgment has the burden of informing the district court of the basis for its
motion and identifying those portions of the record
that demonstrate the absence of a genuine issue of material fact. Celotex Corp. v. Catrett, 477 U.S. 317, 323
52

ECF 25.

App. 19
(1986). If a movant meets its burden, the party opposing summary judgment must present evidence showing either (1) a genuine issue of material fact or (2) that
the movant is not entitled to judgment as a matter of
law. Id. at 324.
In determining whether a genuine issue of material fact exists, the evidence is viewed in the light most
favorable to the party opposing summary judgment,
“and all justiﬁable inferences are to be drawn” in favor
of that party. Anderson, 477 U.S. at 255; see also Herzog
v. Castle Rock Entm’t, 193 F.3d 1241, 1246 (11th Cir.
1999). “Credibility determinations, the weighing of the
evidence, and the drawing of legitimate inferences
from the facts are jury functions,” and cannot be made
by the court in evaluating summary judgment. Anderson, 477 U.S. at 255. See also Graham v. State Farm
Mut. Ins. Co., 193 F.3d 1274, 1282 (11th Cir. 1999).
Summary judgment for the moving party is proper
“[w]here the record taken as a whole could not lead a
rational trier of fact to ﬁnd for the non-moving party.”
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 587 (1986).
III. DISCUSSION
a. Qualified Immunity for § 1983 Claim
42 U.S.C. § 1983 provides:
Every person who, under color of any
statute, ordinance, regulation, custom, or
usage, of any State . . . subjects, or causes
to be subjected, any citizen of the United

App. 20
States . . . to the deprivation of any rights,
privileges, or immunities secured by the
Constitution and laws, shall be liable to
the party injured in an action at law, suit
in equity, or other proper proceeding for
redress.
Section 1983 itself creates no substantive rights. Baker
v. McCollan, 443 U.S. 137, 140, 144 n.3 (1979). Rather,
it provides a “method for vindicating federal rights
elsewhere conferred by those parts of the United
States Constitution and federal statutes that it describes.” Id. To succeed on a § 1983 claim, the plaintiff
“must prove that she was deprived of a constitutionally
guaranteed right under color of state law.” Tillman v.
Coley, 886 F.2d 317, 319 (11th Cir. 1989).53
Plaintiff alleges that Ofﬁcer Hart violated
Knowles’s Fourth Amendment right to be free from unreasonable seizure.54 Tennesee v. Garner, 471 U.S. 1, 7
(1985) (holding that apprehension by use of force constitutes “seizure” subject to Fourth Amendment reasonableness requirement). However, Plaintiff ’s ability
to pursue a § 1983 claim against Ofﬁcer Hart in his individual capacity is limited by the doctrine of qualiﬁed
immunity. Mercado v. City of Orlando, 407 F.3d 1152,
1156 (11th Cir. 2005).
Qualiﬁed immunity provides that “government ofﬁcials performing discretionary functions generally
53

Neither party disputes that Ofﬁcer Hart was acting under
color of state law in responding to the 911 dispatch.
54
ECF 1, ¶ 134.

App. 21
are shielded from liability for civil damages insofar as
their conduct does not violate clearly established statutory or constitutional rights of which a reasonable
person should have known.” Harlow v. Fitzgerald, 457
U.S. 800, 818 (1982). Qualiﬁed immunity “protect[s] ofﬁcers from the sometimes ‘hazy border between excessive and acceptable force.’ ” Saucier v. Katz, 533 U.S.
194, 206 (2001) (quoting Priester v. Riviera Beach, 208
F.3d 919, 926–27 (11th Cir. 2000)). “This exacting
standard ‘gives government ofﬁcials breathing room to
make reasonable but mistaken judgments’ by ‘protect[ing] all but the plainly incompetent or those who
knowingly violate the law.’ ” City & Cty. of San Francisco, Calif. v. Sheehan, 575 U.S. 600, 135 S. Ct. 1765,
1774 (2015) (quoting Ashcroft v. al-Kidd, 563 U.S. 731,
743 (2011)).
In the qualiﬁed immunity analysis, the burden is
on the government ofﬁcial to show he was engaged in
a discretionary function. Holloman ex rel. Holloman v.
Harland, 370 F.3d 1252, 1263-64 (11th Cir. 2004). Once
shown, “the burden shifts to the plaintiff to show that
the defendant is not entitled to qualiﬁed immunity.” Id.
at 1264 (citing Cottone v. Jenne, 326 F.3d 1352, 1358
(11th Cir. 2003)). Here, it is undisputed that Ofﬁcer
Hart was acting within his discretionary authority.55

55

ECF 32, at 23 (“Plaintiff concedes that the use of deadly
force by a police ofﬁcer involves the exercise of discretion. . . .”);
see also Kenning v. Carli, 648 F. App’x 763, 767 (11th Cir. 2016)
(ﬁnding ofﬁcers were engaged in discretionary duty when they
shot plaintiff ’s son during response to police department call).

App. 22
As such, the burden is on the Plaintiff to show that Ofﬁcer Hart is not entitled to qualiﬁed immunity.
In order to carry this burden, Plaintiff must show
that (1) Ofﬁcer Hart’s conduct violated a constitutional
right; and (2) the constitutional right was clearly established. Rodriguez v. Farrell, 280 F.3d 1341, 1345
(11th Cir. 2002).
i. Violation of a Constitutional Right
Whether a police ofﬁcer’s use of force violated a
constitutional right is evaluated under the Fourth
Amendment’s reasonableness standard. Graham v.
Connor, 490 U.S. 386, 395 (1989). This reasonableness
analysis “requires a careful balancing of ‘the nature
and quality of the intrusion on the individual’s Fourth
Amendment interests’ against the countervailing governmental interests at stake.” Id. at 396 (quoting Garner, 471 U.S. at 8). This test “requires careful attention
to the facts and circumstances of each particular case,
including the severity of the crime at issue, whether
the suspect poses an immediate threat to the safety of
the ofﬁcers or others, and whether he is actively resisting arrest or attempting to evade arrest by ﬂight.” Graham, 490 U.S. at 396. The Court must assess these
factors “from the perspective of a reasonable ofﬁcer on
the scene, rather than with the 20/20 vision of hindsight.” Id. (quoting Terry v. Ohio, 392 U.S. 1, 20–22
(1968)).
The Court must look to the “totality of the circumstances” to “determine whether the force used was

App. 23
justiﬁed.” Garczynski v. Bradshaw, 573 F.3d 1158, 1166
(11th Cir. 2009). Further, “[t]he calculus of reasonableness must embody allowance for the fact that police ofﬁcers are often forced to make split-second
judgments—in circumstances that are tense, uncertain, and rapidly evolving—about the amount of force
that is necessary in a particular situation.” Graham,
490 U.S. at 396–97. Accordingly, “the qualiﬁed immunity standard is broad enough to cover some mistaken
judgment, and it shields from liability all but the
plainly incompetent or those who knowingly violate
the law.” Garczynski, 573 F.3d at 1167 (quoting Montoute v. Carr, 114 F.3d 181, 184 (11th Cir. 1997)).
Since this case does not involve a criminal arrest,
the facts do not ﬁt neatly within the Graham framework. However, that framework and reasoning are informative, particularly as to the immediate threat
factor. Under Eleventh Circuit precedent, “it is constitutionally reasonable for an ofﬁcer to use deadly force
when a suspect is threatening escape and possible
harm to others,” or when “he has probable cause to believe that his own life is in peril.” Robinson v. Arrugueta, 415 F.3d 1252, 1256 (11th Cir. 2005); see also
Kenning v. Carli, 648 F. App’x 763, 767 (11th Cir. 2016)
(“It is reasonable, and therefore constitutionally permissible, for an ofﬁcer to use deadly force against a person who poses an imminent threat of serious physical
harm to the ofﬁcer or others.”).
Plaintiff argues that Knowles was not an immediate threat and, therefore, use of deadly force against

App. 24
her was unreasonable.56 For support, Plaintiff points to
allegedly contradictory statements by Ofﬁcer Hart regarding Knowles’s actions;57 Ofﬁcer Hart’s statement
to the GBI that he thought Knowles “was going over
into the corner, like she was gonna get her gun out and
take cover and start shooting”;58 the Joint Preliminary
Report and Discovery Plan’s statement that Ofﬁcer
Hart “shot and killed Knowles, without hesitation and
without giving any warning”;59 the fact that Ofﬁcer
Hart did not shoot her again after thinking he had
missed the ﬁrst time;60 and, the fact that he did not
disarm her before resorting to deadly force.61 In response to Plaintiff ’s argument, the Court emphasizes
that “[o]ur task is not to evaluate what the ofﬁcers
could or should have done in hindsight. The sole inquiry is whether the ofﬁcer’s actions, as taken, were
objectively reasonable under all the circumstances.”
Garczynski, 573 F.3d at 1167; see also Sheehan, 135
S. Ct. at 1777 (“[A] plaintiff cannot avoid summary
judgment by simply producing an expert’s report that
56
57

ECF 32, at 2.
Id. at 4–6, 7–11. This argument was addressed supra note

32.
58

ECF 32, at 6 (citing ECF 32-7 (Hart GBI Recorded Statement), at 15:50–16:00)).
59
ECF 32, at 7 (citing ECF 4, ¶1(b)). The Court rejects this
argument. The Joint Preliminary Report is not admissible evidence, as required under Fed. R. Civ. P. 56(c). Additionally, it was
made prior to discovery and counsel’s statement has since been
shown to be inaccurate. ECF 25–5, ¶¶ 39, 48.
60
ECF 32, at 14–15.
61
Id. at 15–16.

App. 25
an ofﬁcer’s conduct leading up to a deadly confrontation was imprudent, inappropriate, or even reckless.”).
Mindful of this framework, the Court is not persuaded
by Plaintiff ’s argument that Ofﬁcer Hart acted unreasonably under the circumstances. The undisputed facts
show that upon observing that Knowles had a gun, Ofﬁcer Hart warned Ofﬁcer Goetz, told Knowles to show
her hands, and drew his gun. At this point, Ofﬁcer
Hart’s gun was pointed towards the ﬂoor, not at
Knowles. Knowles ignored Ofﬁcer Hart’s instructions,
got up off the bed, and was yelling and screaming.
While Knowles was standing, Ofﬁcer Hart saw her
reach towards her gun, at which point he shot her.
There was approximately a 15-second delay from when
Ofﬁcer Hart ﬁrst commanded Knowles to show her
hands and when he shot her. After she was shot,
Knowles fell to the ﬂoor, began kicking and ﬁghting,
and continued to yell and scream.62 Eventually, the ofﬁcers were able to handcuff Knowles and remove the
handgun from her holster.
Ofﬁcer Hart’s statement that Knowles looked like
she might move into the corner of the bedroom to take
62

Plaintiff ’s argument that Ofﬁcer Hart should have shot
Knowles more than once is belied by the uncontroverted facts that
Knowles fell to the ﬂoor after she was shot, giving Ofﬁcer Hart a
chance to rush to her and attempt to secure her gun. ECF 25–5,
¶ 49; ECF 32–9, ¶ 49. Ofﬁcer Hart’s decision not to shoot Knowles
once she was on the ground does not show that his original shot
was unreasonable. In fact, had he shot Knowles multiple times,
Plaintiff would likely be arguing that such conduct was unreasonable because Knowles did not pose a threat after she fell to the
ﬂoor.

App. 26
cover before starting to shoot only highlights his reasonable belief that Knowles was a dangerous and immediate threat. According to Plaintiff ’s expert, the
approximate distance between the door to the bedroom
and where Knowles was shot, near the corner of the
bedroom, is seven feet.63 Thus, any movement to the
corner of the bedroom would not have interrupted the
immediacy of the dangerous situation.
Ofﬁcer Hart was faced with an imminently dangerous situation. He knew Knowles had taken signiﬁcant amounts of medication, she had been yelling and
screaming since the ofﬁcers arrived at the scene, she
had blood and an “evil” look on her face, she was not
complying with Ofﬁcer Hart’s order to show her hands,
and she had a gun readily available on her hip, which
she appeared to be reaching towards. It is undisputed
that Ofﬁcer Hart gave Knowles time to comply with his
demand to show her hands and she did not comply.64
“This is exactly the type of ‘tense, uncertain and rapidly evolving’ crisis envisioned by the Supreme Court.”
Garczynski, 573 F.3d at 1168 (quoting Graham, 490
U.S. at 397).
In Garczynski, the plaintiff ’s wife enlisted the police to help her ﬁnd her husband. 573 F.3d at 1163. The
police eventually found the plaintiff in his car. Id. Some
of the ofﬁcers saw the plaintiff raise a gun to his temple. Id. There was a factual dispute as to whether the
plaintiff ever turned the gun to aim at the ofﬁcers. Id.
63
64

ECF 10–1, at 7, 12.
ECF 25–5, ¶ 48.

App. 27
at 1168. Nevertheless, the Eleventh Circuit held that
“[e]ven if we assumed that [the plaintiff ] did not point
his gun in the ofﬁcers’ direction, the fact that [he] did
not comply with the ofﬁcers’ repeated commands to
drop his gun justiﬁed the use of deadly force under
these particular circumstances.” Id. at 1169. The court
found that the ofﬁcers’ use of force did not violate the
Fourth Amendment because they reasonably believed
the plaintiff posed an immediate risk of serious harm
to them. Id.
As in Garczynski, Ofﬁcer Hart “did not have control over [Knowles] and there was nothing to prevent
[her] from shooting at the ofﬁcers in an instant.” Id.;
see also Long v. Slaton, 508 F.3d 576, 581 (11th Cir.
2007) (“[T]he law does not require ofﬁcers in a tense
and dangerous situation to wait until the moment a
suspect uses a deadly weapon to act to stop the suspect.”). The Court ﬁnds that Ofﬁcer Hart’s use of force
did not violate the Fourth Amendment as a matter of
law because it was reasonable under the circumstances.
ii. Clearly Established Right
Even assuming, arguendo, Plaintiff demonstrated
a constitutional violation, Ofﬁcer Hart would nonetheless be entitled to qualiﬁed immunity because the right
was not clearly established. For a right to be clearly
established, the contours of the right must be “sufﬁciently deﬁnite that any reasonable ofﬁcial in the defendant’s shoes would have understood that he was

App. 28
violating it.” Plumhoff v. Rickard, 572 U.S. 765, 778,
(2014). To determine whether an ofﬁcial understood
his conduct violated a constitutional right, the Court
must analyze whether the law “at the time of the incident provided ‘fair warning’ to the defendant[ ] ‘that
[his] alleged [conduct] was unconstitutional.’ ” Tolan v.
Cotton, 572 U.S. 650, 656 (2014) (quoting Hope v. Pelzer,
536 U.S. 730, 741 (2002)).
“Fair warning is commonly provided by materially
similar precedent from the Supreme Court, this Court,
or the highest state court in which the case arose.” Kenning, 648 F. App’x at 770 (citing Terrell v. Smith, 668
F.3d 1244, 1256 (11th Cir. 2012)). Though the Supreme
Court does not require a case with materially identical
facts to determine whether the right was clearly established, “existing precedent must have placed the statutory or constitutional question beyond debate.”
Mullenix v. Luna, 136 S. Ct. 305, 308 (2015) (quoting
al-Kidd, 563 U.S. at 741). “This exacting standard
‘gives government ofﬁcials breathing room to make
reasonable but mistaken judgments.’ ” Sheehan, 135
S. Ct. at 1774 (quoting al-Kidd, 563 U.S. at 743).
Clearly established law should not be deﬁned at a
high level of generality; rather, it “must be particularized to the facts of the case.” White v. Pauly, 137 S. Ct.
548, 551 (2017) (citations omitted). “Otherwise,
‘[p]laintiffs would be able to convert the rule of qualiﬁed immunity . . . into a rule of virtually unqualiﬁed
liability simply by alleging violation of extremely abstract rights.’ ” Id. (quoting Anderson v. Creighton, 483
U.S. 635, 639–40 (1987)). If an ofﬁcer’s conduct falls in

App. 29
the “ ‘hazy border between excessive and acceptable
force,” the conduct does not violate clearly established
law. Brosseau v. Haugen, 543 U.S. 194, 201 (2004) (citing Saucier, 533 U.S. at 206)).
Plaintiff has failed to show that Ofﬁcer Hart violated clearly established law. Plaintiff cites to Mercado,
Weiland v. Palm Beach Cty. Sheriff ’s Ofﬁce, 792 F.3d
1313 (11th Cir. 2015), and Turk v. Bergman, 685 F.
App’x 785 (11th Cir. 2017) as establishing that an ofﬁcer cannot shoot someone simply for being in possession of a weapon if it is not being brandished in a
threatening manner. First, only Mercado was published prior to the events in this case. Therefore, only
that holding can be said to have “clearly established”
the principle put forth by Plaintiff. See Turk, 685 F.
App’x at 789 (“[W]e examine clearly established federal law at the time of the shooting.”). Second, those
cases do not support such a proposition.
In Mercado, the plaintiff ’s wife called the police
claiming that the plaintiff was suicidal. Mercado, 407
F.3d at 1154. When the police arrived at the plaintiff ’s
apartment, they were told that the plaintiff was armed
with a knife. Id. After failing to make verbal communication with the plaintiff from outside the apartment,
the ofﬁcers went in and found him sitting on the
kitchen ﬂoor with a knife in both hands, pointed towards his heart. Id. The ofﬁcers identiﬁed themselves
and ordered the plaintiff to drop his knife at least twice
(once in English, once in Spanish). Id. The plaintiff refused without making any threatening moves towards
the ofﬁcers. Id. The ofﬁcers did not warn him that force

App. 30
would be used if he did not drop his weapon. Id. One of
the ofﬁcers ﬁred a Sage Launcher65 at the plaintiff
twice, from a distance of approximately six feet. Id. at
1154–55. The Sage Launcher hit the plaintiff once in
the head, fracturing his skull and resulting in brain
injuries. Id. The court found that the plaintiff in Mercado did not amount to an immediate threat, and,
therefore, use of deadly force was unreasonable. Id. at
1157–58, 1160.
Mercado is easily distinguishable from this case
for the same reasons the Eleventh Circuit pointed to in
Garczynski. “The fact that [Knowles] was armed with
a gun, rather than a knife, distinguishes this case from
Mercado, where we concluded that a suicidal man
holding a knife in his hands was not an immediate
threat to ofﬁcers. . . .” Garczynski, 573 F.3d at 1169 n.3;
see also Perez v. Suszczynski, 809 F.3d 1213, 1220 (11th
Cir. 2016) (“[G]uns are different when it comes to the
level and immediacy of the threat—for instance, a person standing six feet away from an ofﬁcer with a knife
may present a different threat than a person six feet
away with a gun.”). Here, Ofﬁcer Hart was six feet
away from a heavily medicated woman with a gun. Unlike the plaintiff in Mercado, Knowles posed an immediate threat to Ofﬁcer Hart. Thus, the holding in
Mercado could not have provided notice to Ofﬁcer Hart
that his actions violated clearly established law.

65

A Sage Launcher is a less lethal munition that is designed
to protect persons from self-inﬂicted injury. Mercado, 407 F.3d at
1155.

App. 31
Plaintiff claims that Weiland and Turk are relevant to our analysis even though they came out subsequent to the incident at issue here because “those cases
hold that the law was already clearly established at
the time of the shootings in those cases, which predated the shooting in this case.”66 However, Weiland
did not make any holding regarding clearly established
law. In Weiland, the court found that the plaintiff had
adequately pled a Fourth Amendment violation where
the complaint alleged that the ofﬁcers, without warning, shot, tasered, beat, and assaulted a suicidal man
who had a shotgun on his lap but had not made any
threatening moves. Weiland, 792 F.3d at 1326–27. The
Court did not address whether the law was clearly established in that case because the ofﬁcers did not raise
the qualiﬁed immunity defense. Id. at 1326 (“We limit
our analysis to whether the allegations in Weiland’s
complaint are sufﬁcient to state a claim upon which
relief can be granted without regard to the qualiﬁed
immunity defense.”).
In Turk, an unpublished opinion that came out
three years after the incident here, the Eleventh Circuit relies on Mercado and Lundgren v. McDaniel, 814
F.2d 600 (11th Cir. 1987), as establishing that “as of
January 9, 2014, the law was clearly established that
a police ofﬁcer may not use deadly force without warning against a person who was not committing a crime,
resisting arrest, holding a weapon, or making any
threatening moves.” Id. at 789. This holding is vastly
66

ECF 32, at 20 n.4.

App. 32
different from the one proposed by Plaintiff—that it is
unconstitutional to shoot someone who “is in possession of a gun but is not brandishing it in a threatening
manner.”67 Moreover, Knowles did make a threatening
move by getting up and reaching for her gun after Ofﬁcer Hart commanded her to raise her hands. Thus, Ofﬁcer Hart did not violate clearly established law as
stated in Turk.
The Court ﬁnds that Ofﬁcer Hart did not violate a
clearly established constitutional right. Accordingly, he
is entitled to qualiﬁed immunity on Plaintiff ’s § 1983
claim. Ofﬁcer Hart’s motion for summary judgment as
to Count IV is GRANTED.
b. Official Immunity for State Law Claims
The Complaint asserts Georgia law claims for battery, negligence, wrongful death, pain and suffering,
and bad faith. In his motion, Ofﬁcer Hart asserts various defenses including ofﬁcial immunity under Georgia law.68 Since the Court ﬁnds that Ofﬁcer Hart is
entitled to ofﬁcial immunity, it will not address the
other defenses he raises.
The Georgia Constitution provides ofﬁcial immunity for state employees protecting them from liability
for injuries and damages caused in the performance of
their jobs. Ga. Const. art. I, § 2, ¶ IX(d). However, state
employees may still be held liable for the negligent
67
68

Id. at 21.
ECF 25–6, at 20.

App. 33
performance of their ministerial functions and for discretionary actions taken with “actual malice or with
actual intent to cause injury” in performance of their
ofﬁcial functions. Id.; Kidd v. Coates, 271 Ga. 33, 33
(1999)). Plaintiff concedes that the use of deadly force
by a police ofﬁcer is a discretionary act.69 Accordingly,
both parties agree that Ofﬁcer Hart is entitled to ofﬁcial immunity on these counts unless the evidence supports a ﬁnding of “actual malice or intent to cause
injury.”70
The Georgia Supreme Court has explained that “
‘actual malice’ . . . denotes ‘express malice,’ i.e., ‘a deliberate intention to do wrong,’ and does not include
‘implied malice,’ i.e., the reckless disregard for the
rights or safety of others.” Murphy v. Bajjani, 282 Ga.
197, 203 (2007) (quoting Merrow v. Hawkins, 266 Ga.
390, 391–92 (1996)). A “deliberate intention to do
wrong” is deﬁned as “the intent to cause the harm suffered by the plaintiffs.” Murphy, 282 Ga. at 203. It requires “more than harboring bad feelings or ill will
about another; rather, ill will must also be combined
with the intent to do something wrongful or illegal.”
Wyno v. Lowndes Cty., 305 Ga. 523, 531 (2019).
Similarly, an “actual intent to cause injury” refers
to “an actual intent to cause harm to the plaintiff, not
merely an intent to do the act purportedly resulting in
the claimed injury. This deﬁnition of intent contains
aspects of malice, perhaps a wicked or evil motive.” Id.
69
70

ECF 32, at 23.
Id. at 23; ECF 25–6, at 21.

App. 34
(quoting Kidd, 271 Ga. 33). In Kidd, the Georgia Supreme Court held that if an ofﬁcer shot an individual
“intentionally and without justiﬁcation, then [the ofﬁcer] acted solely with the tortious ‘actual intent to
cause injury.’ ” Kidd, 271 Ga. at 33. Additionally, an ofﬁcer who uses deadly force in self-defense under
O.C.G.A. § 16-3-21(a) is entitled to ofﬁcial immunity.
Id.
Plaintiff argues that Ofﬁcer Hart was not acting
in self-defense under O.C.G.A. § 16-3-21(a) because the
statute requires that deadly force be used by a person
who “reasonably believes that such force is necessary
to prevent death or great bodily injury to himself or
herself or a third person or to prevent the commission
of a forcible felony.”71 Accordingly, Plaintiff argues that
Kidd’s holding regarding an ofﬁcer’s use of self-defense
does not apply and Ofﬁcer Hart is not otherwise entitled to ofﬁcial immunity.72 Even assuming the viability
of Plaintiff ’s argument that Kidd does not apply because Ofﬁcer Hart’s use of force was not “necessary,”
which the Court rejects, Ofﬁcer Hart is still entitled to
ofﬁcial immunity.
Plaintiff has failed to provide any evidence that
shows Ofﬁcer Hart acted with “actual malice” or with
an “actual intent to cause injury.” There are simply no
facts from which a reasonable juror could ﬁnd that Ofﬁcer Hart’s motive was to wrongfully cause harm to
Knowles. Ofﬁcer Hart used a reasonable amount of
71
72

ECF 32, at 22 (citing O.C.G.A. § 16-3-21(a)).
ECF 32, at 22–24.

App. 35
force under the circumstances to gain control over the
intense and rapidly evolving situation and stopped using any force as soon as Knowles no longer posed a danger. Cf. Mitchell v. Parker, 271 F. Supp. 3d 1364, 1381
(N.D. Ga. 2017) (distinguishing between harm caused
to plaintiff while ofﬁcers are in process of apprehending plaintiff and harm caused after plaintiff is in ofﬁcer’s control; ﬁnding that latter could show actual
malice or actual intent to cause injury). Nor can Plaintiff reasonably claim that Ofﬁcer Hart harbored any
sort of malice towards Knowles. As Plaintiff notes in
his Complaint, prior to the incident Ofﬁcer Hart “had
never met or spoken to [Knowles].”73 Additionally, for
the reasons already discussed, the Court ﬁnds that Ofﬁcer Hart’s actions were justiﬁable under the circumstances. Accordingly, the Court GRANTS summary
judgment in favor of Ofﬁcer Hart as to Plaintiff ’s state
law claims on ofﬁcial immunity grounds.
IV. CONCLUSION
The Court GRANTS Ofﬁcer Hart’s Motion for
Summary Judgment [ECF 25]. The Clerk is DIRECTED to enter judgment in favor of Ofﬁcer Hart,
each party to bear his own costs, and to close the case.

73

ECF 1, ¶ 13.
Save trees – read court opinions online on Google Scholar.

App. 36
SO ORDERED this the 3rd day of April 2020.
/s/ Steven D. Grimberg
Steven D. Grimberg
United States District Court Judge

App. 37
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 20-11389-AA
-----------------------------------------------------------------------

KENNETH R. KNOWLES,
Lori Renee Knowles, deceased;
Individually and as administrator
of the estate of Lori Renee Knowles,
Plaintiff - Appellant,
versus
OFFICER JASON MICHAEL HART,
Defendant -Appellee.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Georgia
-----------------------------------------------------------------------

ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
(Filed Oct. 5, 2020)
BEFORE: NEWSOM, LAGOA, and BRASHER, Circuit
Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no
judge in regular active service on the Court having requested that the Court be polled on rehearing en banc.

App. 38
(FRAP 35) The Petition for Panel Rehearing is also denied. (FRAP 40)
ORD-46

